Audit Report



Return
    to the USDOJ/OIG Home Page



United States Immigration and Naturalization Service
Intergovernmental Service Agreement
for Detention Facilities with the Manatee County, Florida, 
Board of County Commissioners and the Sheriff
of Manatee County, Florida
GR-40-02-006
March 2002
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Intergovernmental Service Agreement (IGA) proposed between the United States Immigration and Naturalization Service (INS) and the Manatee County Board of County Commissioners; and the Sheriff of Manatee County, Florida (the County), at the request of the INS.  The proposal is to establish a new jail day rate for fiscal year (FY) 2002.  Since the proposal was based primarily on actual costs for FY 2001, our audit also included an audit of the jail day rate billed by the County for FY 2001.  In the existing IGA, the INS guaranteed the County $15,625 per day or $62.50 per detainee for an average daily population up to the first 250 detainees and $60 per detainee per day for each detainee above the average daily population of 250 detainees.  For the period October 2000 through September 2001 (Manatee County's FY 2001), the County billed the INS $9,102,965 for 91,250 jail days at $62.50 per day and 56,664 jail days at $60 per day.

The purpose of the audit was to determine the appropriateness of:   (a) operating costs claimed on the Jail Services Cost Statement (cost sheet), (b) the average daily inmate population identified on the cost sheet, and (c) billings to the INS for FY 2001.  We also determined if the jail day rate was the same as the rate identified in the IGA.  We found that the:

County included $1,204,261 of operating costs in the proposed cost sheet for FY 2002 that were either unallowable, unallocable or unsupported.

	INS may realize annual savings of $1,204,774 if the INS negotiates a jail day rate utilizing our audited rate.

	County over-billed the INS $1,090,464 in FY 2001.


These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.